TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Multiple Channels Are Used to Provide
                   Information to Small Business Taxpayers,
                       but More Information Is Needed to
                            Understand Their Needs



                                       December 30, 2010

                              Reference Number: 2011-40-010




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

  Redactionn Legend:
  1 = Tax return/Return Information




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


MULTIPLE CHANNELS ARE USED TO                         The IRS is taking steps to improve customer
PROVIDE INFORMATION TO SMALL                          service to small business and self-employed
BUSINESS TAXPAYERS, BUT MORE                          taxpayers. Outreach to small business
INFORMATION IS NEEDED TO                              taxpayers is based on multiple sources and
                                                      delivered through a variety of channels. The
UNDERSTAND THEIR NEEDS
                                                      SB/SE Division’s Communications, Liaison, and
                                                      Disclosure function has developed a process to
Highlights                                            help the IRS determine what services and
                                                      information to provide these taxpayers. This
                                                      allows it to extend outreach and education and
Final Report issued on                                to deliver information and materials through
December 30, 2010                                     various channels.

Highlights of Reference Number: 2011-40-010           The Communications, Liaison, and Disclosure
to the Internal Revenue Service Commissioner          function maintains the Issue Management
for the Small Business/Self-Employed Division.        Resolution System and the Outreach Initiative
                                                      Database to track significant issues and identify
IMPACT ON TAXPAYERS                                   trends. However, the Issue Management
                                                      Resolution System is not complete because
The Small Business/Self-Employed (SB/SE)
                                                      employees do not always appropriately enter
Division serves approximately 57 million
                                                      issues, and the System does not help the IRS
taxpayers. It supports the Internal Revenue
                                                      identify industry needs because the impacted
Service’s (IRS) goal to improve customer
                                                      industry was identified for only 25 percent of the
service by educating and informing these
                                                      national issues submitted in Calendar
taxpayers of their tax obligations, developing
                                                      Year 2009. Further, 14 percent of the records
educational products and services, helping
                                                      were missing from the Outreach Initiative
them understand and comply with applicable
                                                      Database.
laws, and protecting the public interest by
applying the tax law with integrity and fairness      WHAT TIGTA RECOMMENDED
to all.
                                                      TIGTA recommended that the IRS (1) evaluate
WHY TIGTA DID THE AUDIT                               the effectiveness of the industry codes in the
                                                      Issue Management Resolution System and
The IRS attributes $148 billion
                                                      (2) ensure that sufficient preventive controls are
(43 percent) of the tax gap to unreported
                                                      activated for the Outreach Initiative Database to
income earned by unincorporated businesses
                                                      provide an adequate audit trail to record
and the associated unpaid self-employment tax.
                                                      changes or deletions as well as the associated
The first goal in the 2009-2013 IRS Strategic
                                                      reasons.
Plan is to improve service to make voluntary
compliance easier. This audit was initiated to        The IRS agreed with the recommendations. It
determine whether the services provided by the        plans to perform a review of industry selections
SB/SE Division to its customers will assist the       to identify the need to add/modify the existing
IRS in achieving its customer service goals.          selections and determine if the Industry field
                                                      should become a required field. Concerning the
WHAT TIGTA FOUND                                      second recommendation, during the initial
Research is needed to identify the needs and          development of the Outreach Initiatives
preferences of small business taxpayers. The          Database, SB/SE Division Web technicians
IRS is conducting research on individual              deleted some unused views as part of the
taxpayers to incorporate taxpayer needs in            testing and refinement process. This action
making service improvement decisions, but it          created some confusion and the practice of
has only begun to devote sufficient resources to      deleting views has been discontinued. All views
conduct comparable research to determine the          now being created remain in either the active or
needs of the small business taxpayer.                 the archived database.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             December 30, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       For Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Multiple Channels Are Used to Provide
                                Information to Small Business Taxpayers, but More Information Is
                                Needed to Understand Their Needs (Audit # 201040026)

 This report presents the results of our review to determine whether the services provided by the
 Small Business/Self-Employed Division to its customers will assist the Internal Revenue Service
 in achieving its customer service goals. This audit was included in the Treasury Inspector
 General for Tax Administration’s Fiscal Year 2010 Annual Audit Plan and addresses the major
 management challenge of Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                          Multiple Channels Are Used to Provide Information to Small
                           Business Taxpayers, but More Information Is Needed to
                                          Understand Their Needs




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Research Is Needed to Identify the Needs and Preferences of
          Small Business Taxpayers ............................................................................ Page 3
          Outreach to Small Business Taxpayers Is Based on Multiple
          Sources and Delivered Through a Variety of Channels................................ Page 7
                    Recommendation 1:........................................................ Page 20

                    Recommendation 2:........................................................ Page 21


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 22
          Appendix II – Major Contributors to This Report ........................................ Page 24
          Appendix III – Report Distribution List ....................................................... Page 25
          Appendix IV – Outcome Measure ................................................................ Page 26
          Appendix V – Outreach Priorities for the Period April 1
          Through June 30, 2010 ................................................................................. Page 27
          Appendix VI – Management’s Response to the Draft Report ...................... Page 29
        Multiple Channels Are Used to Provide Information to Small
         Business Taxpayers, but More Information Is Needed to
                        Understand Their Needs




                     Abbreviations

IMRS           Issue Management Resolution System
IRS            Internal Revenue Service
SB/SE          Small Business/Self-Employed
U.S.           United States
                   Multiple Channels Are Used to Provide Information to Small
                    Business Taxpayers, but More Information Is Needed to
                                   Understand Their Needs




                                       Background

The first goal listed in the 2009-2013 Internal Revenue Service (IRS) Strategic Plan is to
improve service to make voluntary compliance easier. To accomplish this, the IRS states it will:
Objective 1: Incorporate taxpayer perspectives to improve all service interactions.
Objective 2: Expedite and improve issue resolution across all interactions with taxpayers,
             making it easier to navigate the IRS.
Objective 3: Provide taxpayers with targeted, timely guidance and outreach.
Objective 4: Strengthen partnerships with tax practitioners, tax preparers, and other third parties
             in order to ensure effective tax administration.
The Small Business/Self-Employed (SB/SE) Division serves approximately 57 million
SB/SE Division taxpayers, roughly one-third of the overall taxpayer base. Its mission is to
provide customers top-quality service by educating
and informing them of their tax obligations,           The SB/SE Division serves
developing educational products and services,          approximately 57 million taxpayers:
helping them understand and comply with applicable      • 41 million self-employed persons and
laws, and protecting the public interest by applying        supplemental income earners.
the tax law with integrity and fairness to all.         • 9 million small business corporations
The SB/SE Division’s Communications, Liaison,                 and partnerships with assets of less
                                                              than $10 million.
and Disclosure function (the SB/SE
                                                            • 7 million filers of employment, excise,
Communications function) is responsible for
                                                              estate, gift, and fiduciary returns.
developing and implementing communication
strategies and plans and delivering communications
for SB/SE Division internal and external stakeholders. The mission of the SB/SE
Communications function is to develop and deliver integrated strategic communications and
educational products to SB/SE Division employees and taxpayers; partner with key stakeholders
in tax administration, including Federal, State, and local governmental agencies, practitioners,
and industry groups; develop and execute strategies designed to enhance voluntary compliance;
and ensure that Federal tax information is protected by those agencies that receive it.
This review was performed at the SB/SE Division’s Communications, Liaison, and Disclosure
Headquarters in Washington, D.C., during the period March through September 2010. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our

                                                                                               Page 1
                  Multiple Channels Are Used to Provide Information to Small
                   Business Taxpayers, but More Information Is Needed to
                                  Understand Their Needs



findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 2
                      Multiple Channels Are Used to Provide Information to Small
                       Business Taxpayers, but More Information Is Needed to
                                      Understand Their Needs




                                      Results of Review

Research Is Needed to Identify the Needs and Preferences of Small
Business Taxpayers
The IRS attributes $148 billion (43 percent) of the tax gap1 to unreported income earned by
unincorporated businesses and the associated unpaid self-employment tax. Further, IRS data
indicate that well over one-half of the individual underreporting tax gap came from understated
net business income (e.g., unreported receipts and overstated expenses).
Although the IRS is conducting research on individual taxpayers to incorporate taxpayer needs in
making service improvement decisions, it has only begun to devote sufficient resources to
conducting comparable research to determine the needs of the small business taxpayer. In
addition, the IRS has conducted only limited research on the impact of customer service on
taxpayer compliance. As the IRS redirects taxpayers to electronic and self-help services, it needs
to know what services taxpayers, including the small business taxpayers, most need or want and
if the anticipated cost savings and efficiencies will result in an increase in taxpayers’ burden as
they try to remain or become compliant.
Outreach to small business taxpayers presents certain difficulties. These taxpayers may not be
members of trade organizations that provide their members education and services. Moreover,
rather than having an ongoing relationship with a tax practitioner throughout the year, small
business taxpayers may prepare their own tax returns or visit their tax practitioners only once a
year to obtain assistance in filing their tax returns. Therefore, they may have little contact with
the IRS which directs much of its outreach to trade organizations and tax practitioners.
Analysis of the accounts of approximately 19 million
taxpayers who filed at least 1 U.S. Individual Income
                                                            Ninety percent of Schedules C
Tax Return (Form 1040) Profit or Loss From Business           filed in Calendar Year 2010
(Schedule C) for the period January 1 through                  reported net profit/loss of
July 24, 2010, showed that more than 17 million                      $25,000 or less.
                                            2
(90 percent) had Schedule C net profit/loss of $25,000
or less. Almost 5 million (25 percent) of these
taxpayers reported a net loss on their Schedules C. Figure 1 shows the range of net profit/loss
for these approximately 19 million taxpayers.


1
  The tax gap is the estimated difference between the amount of tax that taxpayers should pay and the amount that is
paid voluntarily and on time.
2
  Gross receipts or sales from the business minus expenses.
                                                                                                            Page 3
                      Multiple Channels Are Used to Provide Information to Small
                       Business Taxpayers, but More Information Is Needed to
                                      Understand Their Needs



          Figure 1: Range of Schedule C Profit/Loss for Taxpayers Who Filed
                 a Schedule C From January 1 Through July 24, 20103
                   Range of Net Income              Number of Taxpayers          Percentage
                    Greater than $100,000                    304,017                     1.60
                    $75,001 to $100,000                      157,198                     0.83
                    $50,001 to $75,000                       338,080                     1.78
                    $25,001 to $50,000                    1,095,768                      5.78
                    $0 to $25,000                        12,355,549                    65.21
                    Less than $0                          4,695,633                    24.78
                    Total                                18,946,245                    99.98
                   Source: Our analysis of taxpayer accounts from the Return Transaction File.

Most small business taxpayers received income from other sources. Of the approximately
19 million taxpayers who filed a Schedule C, a majority also reported wage income or other
income such as Social Security or a pension. See Figure 2 for the types of income reported by
these taxpayers.
              Figure 2: Types of Income Reported by Taxpayers Who Filed
                  a Schedule C From January 1 Through July 24, 2010
                                                                                   Number of
                                                             Number of           Taxpayers With
                            Category
                                                             Taxpayers           Total Income of
                                                                                 $25,000 or Less
            Taxpayers who reported only
                                                           2.5 million (13%)   2.3 million (92%)
            Schedule C profits or losses
            Taxpayers who also reported other
                                                           3.2 million (17%)   1.7 million (54%)4
            income (but no wage income)
            Taxpayers who also reported wage
                                                         13.3 million (70%)    3.4 million (26%)
            income and other income
            Total                                       19 million            7.4 million (39%)
           Source: Our analysis of taxpayer accounts from the Return Transaction File.

Schedule C is also used by taxpayers to report self-employment income or income from a
taxpayer acting as a subcontractor.
It is difficult to determine the types of businesses operated or professions practiced by taxpayers
who report their income on Schedule C.5 The name of the business is reported on the Schedule C
but is not transcribed and can be found only by reviewing tax returns. The taxpayer should also

3
  Percentages do not total 100 percent due to rounding.
4
  Percentage does not calculate to 54 percent due to rounding.
5
  A separate Schedule C must be used for each business.
                                                                                                    Page 4
                       Multiple Channels Are Used to Provide Information to Small
                        Business Taxpayers, but More Information Is Needed to
                                       Understand Their Needs



enter a six-digit code designating the principal business or professional activity in which he or
she is engaged. There are 20 categories. The six-digit code is based on the North American
Industry Classification System.6 However, almost 5 million (24 percent) of the approximately
21 million Schedules C analyzed had invalid codes. For the Schedules C with valid codes, more
than one-half fell into the following categories:
    •    Construction – 1.7 million (10.6 percent).7
    •    Health Care and Social Assistance – 1.5 million (9.4 percent).
    •    Other Services (except Public Administration) – 2.6 million (16.1 percent).
    •    Professional, Scientific, and Technical Services – 2.4 million (14.8 percent).
    •    Retail Trade – 1.6 million (9.8 percent).8
The National Taxpayer Advocate has expressed concern that the IRS is not conducting sufficient
outreach and education to important taxpayer groups, including small businesses. The Advocate
recommended that the IRS provide specialized face-to-face services for small businesses. To
adequately assist the small business taxpayer base in complying with tax obligations, the
Advocate recommended that the IRS increase the SB/SE Communications function staffing and
develop a 5-year strategic plan based on the services and delivery channels that small business
taxpayers need and prefer.
The SB/SE Division’s Research function is working with the Wage and Investment Division to
address issues with small business taxpayers and tax practitioners and has initiated several
projects and other related research on the characteristics and needs of small business taxpayers.
It has also contacted the National Taxpayer Advocate to conduct a joint research project on the
low-income segment of the small business community.
Tax practitioner and government agency partners suggested improvements
Our discussions with four organizations9 that partner with the SB/SE Communications function
showed the majority of the partners believed IRS services provided are positive. For example,
participants believed that:
    •    IRS e-Services and toll-free telephone lines are vital service channels to tax practitioners.



6
  The North American Industry Classification System is the standard used by Federal statistical agencies in
classifying business establishments for the purpose of collecting, analyzing, and publishing statistical data related to
the United States (U.S.) business economy.
7
  Percentages are calculated based on the 16 million accurate codes used.
8
  Percentages do not total 16.1 percent, 14.8 percent and 9.8 percent due to rounding.
9
  The American Institute of Certified Public Accountants, the National Association of Enrolled Agents, the National
Small Business Association, and the Small Business Administration.
                                                                                                                Page 5
                   Multiple Channels Are Used to Provide Information to Small
                    Business Taxpayers, but More Information Is Needed to
                                   Understand Their Needs



   •   The IRS does a good job of keeping them informed or alerting them to changes in the tax
       law.
   •   Local practitioner/liaison meetings are very beneficial.
   •   The IRS public Internet site, IRS.gov, is a good source of information and is written in
       plain language. They stated that Your Federal Income Tax For Individuals
       (Publication 17) is very helpful.
However, the partners also offered the following suggestions on how service might be enhanced
or improved if adequate funding becomes available:
   •   Fine-tune IRS.gov to improve navigation through the voluminous information. The
       search option usually returns so much information, much of which may not be relevant.
       The small business owner or self-employed taxpayer who does not have as much
       experience researching tax issues may find it difficult to locate the information they
       need.
   •   Increase staffing for the toll-free telephone lines to reduce the number of busy signals.
   •   Provide a current copy of the Internal Revenue Code on IRS.gov.
   •   Enhance the ability to resolve issues online, including a chat feature.
   •   Include the Internal Revenue Bulletin in the subscription services so the information is
       delivered directly to the tax practitioner.
The IRS is unable to determine the effectiveness of its outreach and education efforts
because it has been unable to measure the impact of its customer service
One of the difficulties the IRS faces in measuring its customer service (e.g., to determine
customer service’s effect on voluntary compliance) is its ability to follow up on the compliance
of the taxpayers. This is true for both individual and business taxpayers. The IRS may be unable
to identify the taxpayers seeking assistance or receiving services or outreach. This is particularly
true for taxpayers who call the IRS’s toll-free telephone number to ask a tax law question or use
one of the IRS’s self-assistance options. In addition, the IRS provides much of its assistance and
outreach through collaboration with other organizations focused on groups of taxpayers.
The SB/SE Communications function continues to work with industry to develop new tools and
deliver business impacts. It is also working with other IRS business units to use surveys of their
customers to better gauge the service to small business and self-employed customers. Surveys
are a good way to identify the success of customer service.
Without knowledge of the characteristics and needs of small business taxpayers and the effect of
its outreach on voluntary compliance, the IRS cannot ensure it is meeting the needs of all
SB/SE Division taxpayers to improve voluntary compliance. Because the IRS is taking steps to

                                                                                             Page 6
                  Multiple Channels Are Used to Provide Information to Small
                   Business Taxpayers, but More Information Is Needed to
                                  Understand Their Needs



identify the small business population and develop outcome measures, we are making no
recommendations at this time.

Outreach to Small Business Taxpayers Is Based on Multiple Sources
and Delivered Through a Variety of Channels
The IRS is taking steps to improve customer service to small business and self-employed
taxpayers. The SB/SE Communications function has developed a process to help the IRS
determine what services and information to provide these taxpayers. This allows the IRS to
extend outreach and education and to deliver information and materials through various
channels.

Various methods and sources are used to determine what information and
services to provide small business and self-employed taxpayers
To help ensure the IRS has sufficient information and develops appropriate educational
materials, the SB/SE Communications function:
   •   Seeks input from other IRS offices and functions. During the annual planning process,
       the SB/SE Communications function seeks input from other IRS offices and functions
       about topics or issues that may need emphasis or development of educational materials.
       The resulting SB/SE Division strategic plan is updated and monitored throughout the year
       for accomplishment of the stated goals.
   •   Collaborates with the SB/SE Division Research function. When requested by other
       SB/SE Division offices and functions, the Research function explores and obtains
       information about the small business and self-employed taxpayer as a whole.
   •   Establishes relationships with tax professionals and industry organizations through
       Stakeholder Liaisons. The SB/SE Communications function’s Stakeholder Liaison unit
       consists of a Headquarters Office with up to 35 analysts and 12 Area Liaison offices with
       up to 153 stakeholder liaisons. These liaisons reach out to stakeholders at the national,
       State, and local levels, and hold an annual tax practitioner/liaison meeting as well as
       monthly meetings with numerous practitioner groups, industry partners, and
       governmental agencies to determine what services, information, or materials are needed.
       Stakeholder liaisons at the local and national level work to establish partnerships with tax
       professionals, industry organizations, and government agencies representing small
       business and self-employed taxpayers. They provide information about the policies,
       practices, and procedures the IRS uses to ensure compliance with the tax laws. The
       stakeholder liaisons identify concerns raised by these partners regarding preparing a tax
       return, starting a small business, or managing a business throughout the year. The
       SB/SE Communications function reviews the issues identified by these interactions and
       determines if additional materials or outreach are needed.
                                                                                            Page 7
                        Multiple Channels Are Used to Provide Information to Small
                         Business Taxpayers, but More Information Is Needed to
                                        Understand Their Needs



       •   Conducts annual surveys of tax professionals and individual business owners. The
           IRS provides its tax professional and small business taxpayer bases the opportunity to
           provide feedback on a broad range of customer service issues through annual surveys.
           The surveys are designed to help the SB/SE Division 1) understand who its practitioners
           and taxpayers are; 2) recognize how practitioners and customers interact with the IRS—
           who they contact in the IRS and their success using the different methods; 3) develop
           new strategies for improving practitioners’ and taxpayers’ effectiveness, ease, and
           satisfaction when dealing with the IRS; and 4) develop new strategies to address the IRS
           Strategic Plan.
In addition, the SB/SE Communications function supports the Small Business Regulatory
Enforcement Fairness Act10 Program by participating in hearings across the country to identify
the burdens being placed on small businesses and what makes them unable to meet their
regulatory compliance obligations. The Small Business Regulatory Enforcement Fairness Act
Program is administered by the Small Business
Association and works to ensure there are no undue            IRS Nationwide Tax Forums for
burdens on small business taxpayers from any Federal          tax practitioners are held in six
Government agency.                                            cities annually and provide the
                                                                           latest information from IRS
The IRS also annually hosts the Nationwide Tax Forums           leadership and experts in the
in six cities for tax practitioners. The Tax Forums offer       fields of tax law, compliance,
                                                                           and ethics.
3 days of seminars with the latest information from IRS
leadership and experts in the fields of tax law, compliance,
and ethics. As part of the Nationwide Tax Forums, the IRS also holds focus groups that allow
practitioners to provide feedback to the IRS on various topics.
From the information gathered from all sources, the SB/SE Communications function prioritizes
the issues to ensure its outreach is focused on those topics of most interest and value to the
SB/SE Division taxpayer. It publishes its list of priorities quarterly. See Appendix V for a list of
those priorities for the period April 1 through June 30, 2010.

Two management information systems are used to capture and track significant
issues and to ensure consistent messages are used with all external audiences
regarding SB/SE Division programs
The SB/SE Communications function maintains two databases, the Issue Management
Resolution System (IMRS) and the Outreach Initiative Database. These databases allow the
SB/SE Communications function to track significant issues identified by stakeholders, to identify
trends when issues are widespread, to elevate stakeholder issues to Stakeholder Liaison
Headquarters for resolution, and to ensure consistent messages are used with all external
audiences regarding SB/SE Division programs.

10
     Pub. L. 104-121, March 29, 1996 (As Amended by Pub. L. 110-28, May 25, 2007).
                                                                                                    Page 8
                   Multiple Channels Are Used to Provide Information to Small
                    Business Taxpayers, but More Information Is Needed to
                                   Understand Their Needs



The IMRS
The SB/SE Communications function established the IMRS to facilitate stakeholder issue
identification, resolution, and feedback. The IMRS is used by stakeholder liaisons to capture,
develop, and respond to significant national and local stakeholder issues. When stakeholders
notify their local stakeholder liaison of concerns about IRS policies, practices and procedures,
the local stakeholder liaison researches and responds to the issues.
The IMRS facilitates identification of nationwide trends in reporting, filing, and paying
requirements that may necessitate changes to IRS processes and procedures. Progress on the
resolution of stakeholder issues is monitored to assure proper response and communication to the
initiating stakeholder and all affected stakeholders.
The IMRS provides three reports that allow local stakeholder liaisons to track various issues.
   •   Hot Issues contains IMRS issues and other current items of interest.
   •   The IMRS Industry Issues Quarterly Report provides a quarterly summary of IMRS
       issues of particular interest to small businesses.
   •   The IMRS Monthly Overview contains an update of issues opened and closed each
       month.
Using the IMRS, the IRS is able to track the issues, the resolutions, and how many days the
issues remain open until resolution. For example:
   • *******************************1*************************************
     ********************************************************************
     *******************************************************************
     *********************************************************************.
     *********************************************************************
     **********************************************************************
     *********************************************************************
     *********************************************************************
     ********************************************************************
     **********************************.
   •   *****************************1*************************************
       *********************************************************************
       **********************************************************************
       *********************************************************************
       *********************************************************************
       *********************************************************************
       *********************************************************************
       ******************************************************.

                                                                                            Page 9
                     Multiple Channels Are Used to Provide Information to Small
                      Business Taxpayers, but More Information Is Needed to
                                     Understand Their Needs



    •   *****************************1*****************************************
        ************************************************************************
        ***********************************************************************
        ************************************************.
Figure 3 shows that in Calendar Year 2009, the IRS tracked 187 national issues and closed
153 (82 percent). The issues were open an average of 98 calendar days. There were 357 local
issues during the same year, of which 337 (94 percent) were closed. The local issues were open
an average of only 26 calendar days. For January 1 through April 13, 2010 the IRS tracked
69 national issues and closed 28 (41 percent). The issues were open an average of 33 calendar
days. There were 177 local issues during the same period, of which 143 (81 percent) were
closed. The local issues were open an average of only 19 calendar days.
     Figure 3: Analysis of the IMRS for January 1, 2009, Through April 13, 2010

                                         National Issues                          Local Issues

                             January 1 –           January 1 –        January 1 –         January 1 –
                            April 13, 2010      December 31, 2009    April 13, 2010    December 31, 2009
Number of Issues                  69                    187               177                    357
Number of Missing               4 (6%)                4 (2%)            3 (2%)               18 (5%)
Issues
Number of Issues              28 (41%)              153 (82%)          143(81%)            337 (94%)
Closed
Average Calendar                33                    98                  19                   26
Days to Closure (for      (54% more than        (38% more than      (14% more than          (28% more
Local Issues – From          30 days)              90 days)            30 days)           than 30 days)
Identification to
Submission)
Source: IMRS for January 1, 2009, through April 13, 2010.

The IMRS is an effective tool for tracking issues, but its functionality could be enhanced by
consistently using the industry field. Further, employees should input all issues promptly,
ensuring relevant information is entered and recorded appropriately into the IMRS.
During Calendar Year 2009, 4 (2 percent) of 187 national issues and 18 (5 percent) of 357 local
issues were missing from the IMRS. This happened because employees did not always
appropriately enter issues.
In addition, the IMRS does not help the IRS identify industry needs. For the national issues
submitted in Calendar Year 2009, the affected industry was identified for only 47 (25 percent) of
the 187 issues. For local issues submitted to the IMRS database in Calendar Year 2009, the
affected industry was identified for only 27 (8 percent) of the 357 issues. Although it is not
                                                                                                 Page 10
                     Multiple Channels Are Used to Provide Information to Small
                      Business Taxpayers, but More Information Is Needed to
                                     Understand Their Needs



currently a required input field, its use could help the IRS focus its efforts on those industries
with the most small business owners or on those issues facing a specific industry.
In 60 (91 percent) of the 66 closed national and local issues reviewed for the period
January 1, 2009, though April 30, 2010, the IRS took steps to resolve the issues. For
3 (5 percent) of the 66 issues, the IRS business unit did not respond to the SB/SE
Communications function’s inquiries, the IRS opted to take no action due to the sensitive nature
of the issue, or the practitioner decided to use alternative methods to resolve the issue. For the
remaining three issues:
     •   1 was declined and closed because it was related to another previously closed issue and
         corrective actions had been taken.
     •   1 did not indicate whether any action was taken.
     •   1 involved a national issue; however, the business unit did not respond, so the
         SB/SE Communications function assisted the practitioner in resolving the issue locally.
The Outreach Initiative Database
The Outreach Initiative Database provides a consolidated summary of SB/SE Division
initiatives. It contains reference material, key messages, and communication products approved
for use in external outreach. This Database is managed by the SB/SE Communications function
and is primarily for Stakeholder Liaison and Governmental Liaison employees’ use. However,
other IRS employees may also rely on its contents to ensure a consistent message on
SB/SE Division and selected IRS program topics.
SB/SE Communication function analysts add topics to the Database by:
     •   Providing a brief description of the initiative, including the key messages and strategic
         goal supported.
     •   Identifying the tentative time period, audiences, and products.
As the initiative evolves, SB/SE Communication function analysts are responsible for updating
the Database information, adding products as they become available, and specifying target
delivery dates agreed upon by IRS business owners.
For example, a recent initiative, Outreach Initiative 353 (Benefits of the Qualified Joint Venture
Filing Option), was opened in response to a March 17, 2010, Treasury Inspector General for Tax
Administration report.11 The report found that many potentially qualified individuals were not




11
  Increased Outreach Efforts Could Enhance Taxpayer Awareness of the Benefits of the Qualified Joint Venture
Filing Option (Reference Number 2010-40-034, dated March 17, 2010).
                                                                                                       Page 11
                     Multiple Channels Are Used to Provide Information to Small
                      Business Taxpayers, but More Information Is Needed to
                                     Understand Their Needs



aware of the Qualified Joint Venture filing option.12 The SB/SE Division worked Outreach
Initiative 353 with the Wage and Investment Division. The recommended timing for the
delivery of the initiative message was April through September 2010. The IRS developed
several explanatory documents for external use, including:
     •   Husband and Wife Business.
     •   Election for Husband and Wife Unincorporated Businesses.
     •   Benefits of Qualified Joint Ventures for Family Businesses.
     •   Simplified Reporting for Family Businesses.
     •   Qualified Joint Venture Talking Points.
The IRS also issued a stakeholder headliner on April 7, 2010, entitled “The Benefits of Qualified
Joint Ventures for Family Businesses.” It updated IRS.gov with information on the Election for
Husband and Wife Unincorporated Businesses. A news article for small businesses was made
available March 31, 2010, which featured the reasons a husband and wife might not be treated as
a partnership. The SB/SE Division also prepared a presentation and talking points about the
topic for presentations to small business owners and IRS partners.
As of May 20, 2010, there were 377 initiatives in the Database. Figure 4 shows the status of the
initiatives and the volume of initiatives for each status in the Database.
                             Figure 4: Status of Outreach Initiatives
                                Initiative Status          Number of Initiatives
                          Cancelled                                  12
                          Deleted                                    35
                          Missing                                    52
                          New – Unassigned                             0
                          Outreach Complete                         157
                          Products Available                        108
                          Products in Development                    13
                          Total                                     377
                         Source: Outreach Initiative Database as of May 20, 2010.


12
   The Qualified Joint Venture option allows taxpayers to bypass the filing of U.S. Return of Partnership Income
(Form 1065) and the associated Supplemental Income and Loss (Schedule E) and file only two Schedules C and two
Self-Employment Tax (Schedule SE) with their Form 1040. Married individuals filing a single Schedule C may
allocate the Schedule C income. Thus, both individuals receive Social Security credit.
                                                                                                       Page 12
                   Multiple Channels Are Used to Provide Information to Small
                    Business Taxpayers, but More Information Is Needed to
                                   Understand Their Needs



We found that 52 records (14 percent) were missing from the Database, but there was no audit
trail to determine why the records were missing. The IRS could not explain why these records
were missing and stated the following possibilities:
   1) If an initiative was initially submitted/entered, the Database could have assigned it an
      identification number. At a later date, the analyst/co-analyst could have found that the
      record contained errors and requested that an administrator delete the record and a new
      record/issue be submitted.
   2) The records never contained any information at all.
When capturing information on an automated system or database, it is important to have a
complete record for all items on the database. This record of items is sometimes referred to as an
audit trail or audit log and is a valuable internal control tool for automated systems. The use of
audit trails allows administrators to accomplish several security-related objectives such as
intrusion detection, problem analysis, individual accountability, and reconstruction of events that
occurred on the system that was compromised. When these controls are missing, the reliability
of the data becomes questionable.

Many channels are used to deliver outreach and assistance to SB/SE Division
taxpayers
The SB/SE Communications function expands its outreach by working in partnership with tax
practitioner groups, industry organizations, and governmental agencies to maximize the number
of SB/SE Division taxpayers it is able to reach. Through these partnerships, the
SB/SE Communications function is able to provide services, information, and educational
materials to small business owners and self-employed taxpayers using a variety of methods and
delivery channels, including the organizations’ own newsletters, web sites, and local events.
Because approximately 80 percent of the SB/SE Division’s tax returns are prepared by tax
practitioners, much of the SB/SE Communications function’s outreach is focused on
practitioners.
The toll-free telephone lines offer both SB/SE Division taxpayers and their practitioners the
opportunity to call the IRS with questions on tax law or tax accounts
Each year, millions of taxpayers contact the IRS by calling the various toll-free telephone
assistance lines to seek help in understanding tax laws and meeting their tax obligations.
Telephone assistance for businesses is available Monday through Friday from 7:00 a.m. through
10:00 p.m. local time. There is also a 24-hour recorded assistance line. From October 1, 2009,
through June 30, 2010, almost 4 million calls were made to the toll-free telephone number that




                                                                                           Page 13
                      Multiple Channels Are Used to Provide Information to Small
                       Business Taxpayers, but More Information Is Needed to
                                      Understand Their Needs



taxpayers call to ask business account or tax law questions (1-800-829-4933). The IRS achieved
a 75 percent Level of Service and 570-second Average Speed of Answer.13
The toll-free telephone assistance lines are further subdivided into categories called
“applications,” each of which is staffed with a group of assistors who have received specialized
training to assist taxpayers with specific tax issues. Assistors answer taxpayer questions
involving tax law and tax account conditions such as refunds, balance-due billing activity, and
changes to the amount of tax owed. For example, if a business taxpayer calls to find out the
taxes due on a business account, the call would be routed to an assistor who handles balance-due
questions for business taxpayers.
Accuracy on the business applications is generally high. The accuracy rate reported by the IRS
for the 8 business account applications ranged from 94 percent to 98 percent. For the 2 business
tax law applications, the accuracy rates were 91 percent for Application 125 - Small Business
and 96 percent for Application 123 - Business Issues.
Tax professionals can also call the Practitioner Priority Service telephone number
(1-866-860-4259) to obtain assistance for their clients. From October 1, 2009, through
June 30, 2010, more than 1 million calls were made to the Practitioner Priority Service telephone
number. The IRS achieved a Level of Service of 81 percent and 569 seconds for the Average
Speed of Answer. The accuracy rate for the Practitioner Priority Service business accounts
application was 95 percent. There is no tax law application for the Practitioner Priority Service
number.
The IRS.gov SB/SE Division webpage contains information for both small business owners
and self-employed taxpayers
Figure 5 shows that the IRS provides SB/SE Division taxpayers with tax information on how to
start, operate, and stop a business, as well as how to determine if individuals are employees or
contractors.




13
  Level of Service is the IRS’s primary measure of providing taxpayers with access to an assistor. Average Speed
of Answer is the average number of seconds taxpayers waited in the queue (on hold) before receiving services.
                                                                                                         Page 14
                       Multiple Channels Are Used to Provide Information to Small
                        Business Taxpayers, but More Information Is Needed to
                                       Understand Their Needs



                                 Figure 5: SB/SE Division Webpage




Source: IRS.gov.

In addition, through IRS.gov, the IRS offers a Virtual Small Business Tax Workshop. It is an
interactive resource to help small business owners learn about their Federal tax rights and
responsibilities. This educational product, available online and on compact disc, contains nine
stand-alone lessons that can be selected and viewed in any sequence. A bookmark feature makes
it possible to leave and return to a specific point within the lesson.
The Virtual Small Business Tax Workshop is the first of a series of video products designed
exclusively for small business taxpayers. The IRS is planning a new series called “Your Guide
to an IRS Audit” with plans for a Calendar Year 2010 launch.
Also available on the IRS webpage is the IRS Tax Calendar for Small Businesses and the
Self-Employed14 that is available online or as a printable document. This 12-month wall calendar

14
     Publication 1518, Catalog Number 12350Z.
                                                                                        Page 15
                         Multiple Channels Are Used to Provide Information to Small
                          Business Taxpayers, but More Information Is Needed to
                                         Understand Their Needs



is filled with information on general business taxes, IRS and Social Security Administration
customer assistance, electronic filing and paying options, retirement plans, business publications
and forms, and common tax filing dates. Each page highlights different tax issues and tips that
may be relevant to small business owners.
The IRS also provides a webpage for tax professionals with links to tools professionals can use
to help with their clients’ accounts and to electronically file tax returns. For example, the
webpage also includes information on:
     Proposed New Requirements for Tax Return Preparers
     Learn about the new requirements for tax return preparers, including registration, testing, and
     continuing education.
     The American Recovery and Reinvestment Act of 200915 Information Center
     Update on the new economic stimulus legislation.
     Disaster Relief Resource Center for Tax Professionals
     Visit this resource center to learn how to re-establish your business after a natural disaster.
     IRS Live
     IRS Live is for the tax pro in the know. A live Webinar, IRS Live is a panel discussion among
     IRS experts and industry professionals aimed at educating tax professionals on the most current
     and complex tax issues affecting them and their clients.
     Servicewide Key Messages for Tax Professionals
     Quarterly messages for the tax professional community, including publications and educational
     products.
     Tax Information on Donated Property
     How donors, charities, and tax professionals must report noncash charitable contributions.
     The Tax Gap
     This page provides information on the tax gap and efforts to reduce it as outlined in news
     releases, statistics, and technical fact sheets.
     The International Tax Gap
     Find resources on this page pertaining to the international tax gap — the difference between the
     amount of tax that taxpayers should pay and the amount that is paid voluntarily and on time.
     The tax gap can also be thought of as the sum of noncompliance with the tax law.
     Interactive Tax Assistant
     The Interactive Tax Assistant is a new resource that provides consistent answers to a limited
     number of tax law questions using a probe and response process. The Interactive Tax Assistant
     will guide you to accurate answers that are not readily addressed through simple Frequently
     Asked Questions.




15
     Pub. L. No. 111-5, 123 Stat. 115.
                                                                                                       Page 16
                      Multiple Channels Are Used to Provide Information to Small
                       Business Taxpayers, but More Information Is Needed to
                                      Understand Their Needs



SB/SE Division taxpayers can subscribe to e-News for Small Businesses
The e-News is a free electronic mail service and is distributed every other Wednesday. The
e-News includes:
     •   Important upcoming tax dates for SB/SE Division customers.
     •   What’s new for small businesses on IRS.gov.
     •   Reminders and tips to assist the SB/SE Division taxpayer with tax compliance.
     •   IRS news releases and special IRS announcements that pertain to SB/SE Division
         customers.
     •   Tax-related information from other Federal agencies.
The IRS forms partnerships to reach more taxpayers
To maximize the number of small business owners and self-employed individuals it is able to
reach, the SB/SE Division, through its stakeholder liaisons, expands its outreach by working in
partnership with tax professional groups such as the American Institute of Certified Public
Accountants, the National Association of Enrolled Agents, industry organizations such as the
Chambers of Commerce and The National Federation of Independent Business, and
governmental agencies such as the Small Business Association and State Revenue Departments.
The liaisons focus on national and local engagement of the payroll and practitioner community
and stakeholder organizations to provide information about IRS policies, practices, and
procedures to ensure compliance with the tax laws, both by voluntary means and through
enforcement programs. Liaisons also specialize as:
     •   Industry Liaisons – Identify priority organizations within the stakeholder communities of
         interest.
     •   Payroll and Practitioner Liaisons – Work with practitioner organizations to provide
         member tax practitioners with information about the policies, practices, and procedures
         the IRS uses to ensure compliance with the tax laws.
     •   Bank Secrecy Act/Special Programs Liaisons – Provide education and outreach to
         nonbank financial institutions about the reporting and record keeping requirements of
         Title 31, the Bank Secrecy Act.16




16
  Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended in scattered sections of 12 U.S.C.,
18 U.S.C., and 31 U.S.C.). Regulations for the Bank Secrecy Act and other related statutes are 31 C.F.R.
Sections 103.11-103.77 (2009).
                                                                                                          Page 17
                  Multiple Channels Are Used to Provide Information to Small
                   Business Taxpayers, but More Information Is Needed to
                                  Understand Their Needs



Through its partnership with the Small Business Administration, the SB/SE Communications
function is able to provide information to a wide range of small business owners and
self-employed taxpayers through various organizations, for example:
   •   The Service Corps of Retired Executives Association – a partner of the Small Business
       Association, is dedicated to entrepreneur education and the formation, growth, and
       success of small businesses nationwide. There are more than 10,500 Service Corps of
       Retired Executive volunteers in 374 chapters operating in more than 800 locations that
       assist small businesses with business counseling and training. The Service Corps of
       Retired Executive Association also operates an active online counseling initiative.
   •   The Office of Small Business Development Centers – provides management assistance
       to current and prospective small business owners. The Small Business Development
       Centers offer one-stop assistance to individuals and small businesses by providing a wide
       variety of information and guidance in central and easily accessible branch locations.
       The program is a cooperative effort of the private sector, the educational community, and
       Federal, State, and local governments and is an integral component of Entrepreneurial
       Development’s network of training and counseling services. Entrepreneurial
       Development is helping small businesses start, grow, and compete in global markets by
       providing quality training, counseling, and access to resources.
   •   United States (U.S.) Export Assistance Centers – located in major metropolitan areas
       throughout the U.S., are one-stop shops ready to provide small- or medium-sized
       businesses with local export assistance. Businesses can receive personalized assistance
       by professionals from the U.S. Small Business Administration, the U.S. Department of
       Commerce, the U.S. Export-Import Bank, and other public and private organizations. It
       is a partnership that makes it easier to get the help businesses need to compete and
       succeed in the global marketplace.
   •   Women’s Business Centers – represent a national network of nearly 100 educational
       centers designed to assist women to start and grow small businesses. The Women’s
       Business Centers operate with the mission to level the playing field for women
       entrepreneurs, who still face unique obstacles in the world of business.
The SB/SE Communications function also offers free webinars and telephone forums throughout
the year.
   •   Telephone Forums. Small business telephone forums enable the IRS to address issues
       involving small business owners or self-employed taxpayers without them having to
       leave their home or office. The programs are designed to provide presentations on key
       topics. The phone forums are free of charge. These forums can be held at either the local
       or national level and are archived on IRS.gov for later listening. Recent topics include



                                                                                        Page 18
                      Multiple Channels Are Used to Provide Information to Small
                       Business Taxpayers, but More Information Is Needed to
                                      Understand Their Needs



         “Small Business/Self Employed Campus Correspondence Audit Process and Resolution,”
         “Office of Professional Responsibility and Circular 230:17 Overview, Procedures and
         Priorities,” and “Making Authorizations Easier - Do’s and Don’ts of Forms 2848
         and 8821.”18
     •   Live Webinars. Webinars are held to provide information on various topics to tax
         professionals. For example, IRS Live is a panel discussion among IRS experts and
         industry professionals aimed at educating tax professionals on the most current and
         complex tax issues affecting them and their clients. IRS Live is free and is broadcast
         bimonthly. Tax professionals are able to submit questions by email during the webinar.
         The programs are archived on IRS.gov for later viewing. Recent topics include “New
         Requirements for Tax Return Preparers,” “Tips on Tip Reporting,” and “Getting Ready
         for Filing Season – Individuals and Businesses.”
From October 2008 through February 2010, the IRS held 17 National Telephone Forum and
Webinar events for which there were 41,207 participants.
The SB/SE Communications function provides outreach and education on new legislation,
new procedures, and current events that affect SB/SE Division taxpayers
The IRS initiates outreach/educational campaigns to SB/SE Division taxpayers and their
practitioners when there are new tax laws, IRS regulations, or events that occur and affect them.
For example, the IRS has recently organized and initiated various activities on the health care
law and the Gulf Coast oil spill.
Information on tax law changes is posted on IRS.gov and is distributed through the various
e-News subscriptions, IRS Newswire, and IRS Exempt Organizations Newsletter. In addition, the
IRS will send letters or mailouts to alert taxpayers of new tax laws, as it did the week of
April 19, 2010, to educate small business taxpayers about the new Small Business Health Care
Tax Credit.
The Small Business Health Care Tax Credit is part of the Patient Protection and Affordable Care
Act.19 It helps small businesses and small tax-exempt organizations afford the cost of covering
their employees and is specifically targeted for those with low- and moderate-income workers.


17
   Regulations Governing the Practice of Attorneys, Certified Public Accountants, Enrolled Agents, Enrolled
Actuaries, Enrolled Retirement Plan Agents, and Appraisers before the Internal Revenue Service, Treasury
Department Circular No. 230 (Rev. 4-2008), Authority: Sec. 3, 23 Stat. 258, Secs. 2-12, 60 Stat. 237 et seq.;
5 U.S.C. 301, 500, 551-559; 31 U.S.C. 321; 31 U.S.C. 330; Reorg. Plan No. 26 of 1950, 15 FR 4935, 64 Stat. 1280,
3 CFR, 1949-1953 Comp., p. 1017.
18
   Power of Attorney and Declaration of Representative (Form 2848) and Tax Information Authorization
(Form 8821).
19
   Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of 18 U.S.C., 20 U.S.C.,
21 U.S.C., 25 U.S.C., 26 U.S.C., 28 U.S.C., 29 U.S.C., 30 U.S.C., 31 U.S.C., 35 U.S.C., and 42 U.S.C.).
                                                                                                        Page 19
                   Multiple Channels Are Used to Provide Information to Small
                    Business Taxpayers, but More Information Is Needed to
                                   Understand Their Needs



The Small Business Health Care Tax Credit is designed to encourage small employers to offer
health insurance coverage for the first time or maintain coverage they already have.
On April 14, 2010, the IRS Commissioner testified before the House Small Business Committee
that the IRS has taken steps to show more flexibility in dealing with taxpayers and small
businesses that are having difficulty meeting their tax obligations. The Commissioner stated that
the IRS has moved quickly during the last 15 months to implement the new tax law changes that
are intended to help small businesses. On April 26, 2010, the SB/SE Division Commissioner
participated on a panel to discuss the impact to small businesses of the new Small Business
Health Care Tax Credit and advised that IRS.gov contains current information about the Credit.
The IRS has also provided outreach to help taxpayers affected by the Gulf Coast oil spill. The
IRS.gov home page provides taxpayers with the following:
                                     Guidance, Help Available
                                     Special telephone line, other assistance available to affected
                                     taxpayers.
                                     Find Available Resources
                                     There are various resources for taxpayers affected by the oil
                                     spill.
                                     Questions About the Tax Impact?
                                     We have answers about the spill’s tax impact on you or
                                     your business.
In addition, on Saturday, July 17, 2010, the IRS opened walk-in offices, called Taxpayer
Assistance Centers, in seven Gulf Coast cities to provide help to taxpayers affected by the oil
spill. Individuals who had questions about the tax treatment of claim payments or who are
experiencing filing or payment hardships because of the oil spill were able to work directly with
IRS personnel at any of these locations.
The IRS has also dedicated a telephone line for victims of the Gulf Coast oil spill
(1-866-562-5227). This special toll-free telephone line is open weekdays from 7:00 a.m.
to 10:00 p.m. and was also opened to callers on Saturday, July 17, 2010, from 9:00 a.m. to
2:00 p.m. Central Time. In addition, the local stakeholder liaisons will include updated
information during their meetings and events with practitioners and business organizations.

Recommendations
The Commissioner, Small Business/Self-Employed Division, should:
Recommendation 1: Evaluate the effectiveness of the industry codes in the IMRS in
identifying trends in specific industries and determine if the industry code should be required.


                                                                                           Page 20
                   Multiple Channels Are Used to Provide Information to Small
                    Business Taxpayers, but More Information Is Needed to
                                   Understand Their Needs



       Management’s Response: IRS management agreed with this recommendation. A
       team will perform a review of industry selections to identify the need to add/modify the
       existing selections and determine if the Industry field should become a required field.
Recommendation 2: To avoid the problem of missing records, ensure that sufficient
preventive controls are activated for the Outreach Initiative Database to provide an adequate
audit trail to record changes or deletions as well as the associated reasons.
       Management’s Response: IRS management agreed with this recommendation.
       During the initial development of the Outreach Initiatives Database, SB/SE Division Web
       technicians deleted some unused views as part of the testing and refinement process.
       This action created some confusion and the practice of deleting views has been
       discontinued. All views now being created remain in either the active or the archived
       database.




                                                                                          Page 21
                  Multiple Channels Are Used to Provide Information to Small
                   Business Taxpayers, but More Information Is Needed to
                                  Understand Their Needs



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the services provided by the SB/SE Division to
its customers will assist the IRS in achieving its customer service goals. To accomplish our
objective, we:
I.     Determined if the SB/SE Division has a strategy for improving customer service for
       small business taxpayers by obtaining, reviewing, and discussing with appropriate IRS
       officials the strategy or plan for providing customer services to small business taxpayers.
II.    Identified how the SB/SE Division determines what services the small business taxpayer
       wants or needs and what services the IRS has identified as small business taxpayer needs.
       A. Discussed with SB/SE Division management how they determine what services the
          SB/SE Division taxpayer needs and how they determine which services to provide.
       B. Discussed with SB/SE Division management how they coordinate with other IRS
          functions, such as the Compliance function, to determine the issues facing small
          business taxpayers.
       C. Obtained and analyzed the results of any surveys or other feedback obtained from
          SB/SE Division taxpayers, tax professionals, or partners and determined how those
          results are used.
       D. Performed a statistical analysis of the IMRS to determine characteristics of the issues,
          such as the number of issues, the number closed, and the average days to closure. We
          also selected a statistical sample of 66 closed issues from a population of 661 closed
          issues on the IMRS for the period January 1, 2009, through April 30, 2010, to
          determine if actions were taken to resolve the issues. Our sample size was based on a
          95 percent confidence level, a ± 5 percent precision level, and a 5 percent expected
          error rate. A statistical sample was taken because we wanted to estimate the number
          of items for which actions were taken to resolve the issue. We did not conduct an
          assessment of reliability because data were not available for comparison. This did not
          affect the audit objective.
III.   Determined what outreach/research initiatives are being conducted and how the SB/SE
       Division identifies what research initiatives are needed by analyzing the Outreach
       Initiative Database to identify the current initiatives and any initiatives that have been
       finalized. We determined how those initiatives are prioritized and how the results are
       used.


                                                                                            Page 22
                      Multiple Channels Are Used to Provide Information to Small
                       Business Taxpayers, but More Information Is Needed to
                                      Understand Their Needs



IV.     Determined how the SB/SE Division selects what information is placed on IRS.gov,
        issued in Alerts, or provided in the Small Business workshops.
V.      Determined how the SB/SE Division identifies new tax law changes and how it notifies
        taxpayers of the impact of those changes.
        A. Discussed with SB/SE Division management the process for identifying new tax law
           changes affecting the SB/SE Division taxpayer and assessing the effect of those
           changes.
        B. Determined how the tax law changes and the effect of those changes are
           communicated to taxpayers.
        C. Determined what information was developed for the Qualified Joint Venture Option
           and the Gulf Coast oil spill and how it was communicated to relevant taxpayers.
VI.     Obtained feedback from IRS partners by surveying the American Institute of Certified
        Public Accountants, the National Association of Enrolled Agents, the Small Business
        Administration, and the National Small Business Association to solicit feedback on the
        services the IRS provides to the small businesses and self-employed taxpayers.
VII.    Determined the characteristics of the small business taxpayer by analyzing a Master File1
        extract of all taxpayers that filed at least one Profit or Loss From Business (Schedule C)
        for the period January 1 through July 24, 2010. Validated the extracted data by
        comparing the data to the Integrated Data Retrieval System2 data.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: SB/SE Division Communications
function’s policies, procedures, and practices for identification of taxpayer needs and the
development and delivery of information and products to IRS partners and taxpayers. We
evaluated controls by interviewing management and reviewing policies, reports, and procedures.




1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                           Page 23
                 Multiple Channels Are Used to Provide Information to Small
                  Business Taxpayers, but More Information Is Needed to
                                 Understand Their Needs



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Sharon Shepherd, Lead Auditor
Jackie Forbus, Senior Auditor
Robert Howes, Senior Auditor
Jerome Antoine, Auditor




                                                                                    Page 24
                 Multiple Channels Are Used to Provide Information to Small
                  Business Taxpayers, but More Information Is Needed to
                                 Understand Their Needs



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Data Strategy Implementation Office, Small Business/Self-Employed Division
SE:S:DSI
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Strategy and Finance, Small Business/Self-Employed Division SE:S:SF
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Communications, Small Business/Self-Employed Division SE:S:CLD:C
Director, Policy and Strategic Planning, Small Business/Self-Employed Division
SE:S:CLD:PSP
Director, Stakeholder Liaison Field Operations, Small Business/Self-Employed Division
SE:S:CLD:SL:F
Director, Stakeholder Liaison Headquarters, Small Business/Self-Employed Division
SE:S:CLD:SL:HQ
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Senior Operations Officer OS:CFO
       Director, Policy and Strategic Planning, Small Business/Self-Employed Division
       SE:S:CLD:PSP
       Manager, Policy and Strategic Planning, Small Business/Self-Employed Division
       SE:COM




                                                                                    Page 25
                   Multiple Channels Are Used to Provide Information to Small
                    Business Taxpayers, but More Information Is Needed to
                                   Understand Their Needs



                                                                                Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; 52 of 377 records missing from the Outreach Initiative
    Database (see page 7).

Methodology Used to Measure the Reported Benefit:
We examined the Outreach Initiative Database that provides a consolidated summary of
SB/SE Division initiatives to identify the current and finalized initiatives. As of May 20, 2010,
there were 377 initiatives in the Database. Fifty-two records (14 percent) were missing from the
Database, but there was no audit trail to determine why the records were missing. Because of the
lack of internal controls, the IRS cannot rely on the information the IRS is reporting about the
Program’s operations.




                                                                                         Page 26
                         Multiple Channels Are Used to Provide Information to Small
                          Business Taxpayers, but More Information Is Needed to
                                         Understand Their Needs



                                                                                  Appendix V

                        Outreach Priorities for the Period
                         April 1 Through June 30, 2010

The SB/SE Division Communications function prioritizes issues to ensure its outreach is focused
on those topics of most interest and value to the SB/SE Division taxpayer. The Outreach
Initiative Database is used to track SB/SE Division initiatives. The following are outreach
priorities along with the number of issues associated with each priority as shown in the Outreach
Initiative Database for the period April 1 through June 30, 2010.
Practitioner Outreach
       American Recovery and Reinvestment Act of 2009 and Worker, Homeownership and
       Business Assistance Act of 20091* – Issues 297, 299, 316, 334, and 339.
       Bartering* – Issue 286.
       Disguised corporate ownership – Issue 333.
       Earned Income Tax Credit due diligence and compliance initiatives – Issue 330.
       Economic challenges – Issue 290.
       Field audit process – Issue 280.
       Health Care – Issues 352, 368, 370, and 371.
       Hiring Incentives to Restore Employment Act2 – Issue 351.
       Net operating losses – Issue 339.
       Payment card and third-party payment transactions* – Issue 338.
       Qualified Joint Venture – Issue 353.
       Return Preparer Strategy – Issue 343.
       Savings Bond initiative* – Issue 325.
       Tax return preparer initiative* – Issues 344 and 354.




1
    Pub. L. No. 111-5, 123 Stat. 115; Pub. L No: 111-92, 123 Stat. 2984.
2
    Pub. L No: 111-147, 124 Stat. 71.
                                                                                         Page 27
                  Multiple Channels Are Used to Provide Information to Small
                   Business Taxpayers, but More Information Is Needed to
                                  Understand Their Needs



Business and Industry Outreach
   American Recovery and Reinvestment Act of 2009 and Worker, Homeownership and
   Business Assistance Act of 2009* – Issues 297, 299, 316, 334, and 339.
   Bartering* – Issue 286.
   Business or hobby (Internal Revenue Code Section 183)* – Issue 250.
   Disguised corporate ownership – Issue 333.
   Economic challenges – Issue 290.
   Field audit process* – Issue 280.
   Health Care – Issues 352, 368, 370, and 371.
   Hiring Incentives to Restore Employment Act – Issue 351.
   Qualified Joint Venture – Issue 353.
   Savings Bond initiative* – Issue 325.
   Tax Centers – Issue 183.
* - Federal, State, and/or Local Government Outreach.
Sensitive Issues (Restricted Access)
   Federal Insurance Contributions Act Protective Claims - Severance Pay (April 5, 2010).
   Mandatory e-File for Tax Return Preparers (November 10, 2009).
   Association of Community Organizations for Reform Now (ACORN) (September 28, 2009).
   IRS Test Matching (July 6, 2009).




                                                                                      Page 28
     Multiple Channels Are Used to Provide Information to Small
      Business Taxpayers, but More Information Is Needed to
                     Understand Their Needs



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 29
Multiple Channels Are Used to Provide Information to Small
 Business Taxpayers, but More Information Is Needed to
                Understand Their Needs




                                                      Page 30
Multiple Channels Are Used to Provide Information to Small
 Business Taxpayers, but More Information Is Needed to
                Understand Their Needs




                                                      Page 31
